          Office of Inspector General
Corporation for National and Community Service




  Follow-up on the Corporation's Management
      Decision Regarding Questioned Costs
      Reported in OIG Audit Report 99-04,
     Audit of Congressional Hunger Center

            OIG Audit Report 02-07
               October 1,2001




                    Prepared by:
          Leonard G. Birnbaum and Company
                 6285 Franconia Road
             Alexandria, Virginia 223 10

           Under CNS OIG Delivery Order
           S-OPRAQ-99-D-0020-CNS 12
                                                                                           CORPORATION
             Follow-up on the Corporation's Management Decision                            FOR NATIONAL
                    Regarding Questioned Costs Reported in
                                                                                           QSERVICE
          OIG Audit Report 99-04, Audit of Congressional Hunger Center

                                 OIG Audit Report 02-07



Introduction

CNS OIG engaged L. B. Birnbaum to assess the evidence underlying the Corporation's final
decision to allow certain costs questioned as a result of OIG's audit of costs claimed against
Corporation grants by the Congressional Hunger Center (OIG Audit Report 99-04). As
discussed in OIG's March 31, 2001 Semiannual Report, OIG was concerned because $96
thousand of the $128 thousand of the reinstated costs had been described by management as
being based on documentation that had been warehoused at the time of the audit and not
reviewed by the auditors.

L. G. Birnbaum and Company performed agreed upon procedures to review the documentation
supporting the decision to determine whether it was competent; that is, relevant and valid. In
addition, in response to issues raised by the firm, OIG investigators followed-up regarding the
propriety of the documentation supporting the $96 thousand. The investigation revealed that the
documents were authentic.

Based on the procedures performed, L. G. Birnbaum concluded that $18,446 of the $128,589 of
costs (Exhibit A) were inappropriately reinstated. OIG reviewed the report and the work papers
upon which it is based. We agree with the report's conclusion. We concur with Corporation
management that the remaining $104,873 of reinstated costs are allowable.

We provided a draft of this report for Corporation management's review and response. Their
response is included in its entirety within the report. L. G. Birnbaum's report discusses certain
points raised in the response.




                                                                                       Inspector General
                                                                                       1201 New York Avenue, NW
                                                                                       Washington, DC 20525
                           LEONARD       G.   BIRNBAUM            AND      COMPANY, LLP
                                          CERTIFIED PUBLIC ACCOUNTANTS
                                                 WASHINGTON OFFICE

                                                6285 FRANCONIA ROAD

                                               ALEXANDRIA. VA 22310-2510



                                                     (703) 922-7622

                                                  FAX: (703) 922-8256

LESLIE A. LEIPER                                                                               WASHINGTON. D.C.
LEONARD G. BIRNBAUM                                                                           SUMMIT. NEW JERSEY
DAVID SAKOFS                                                                                 LOS ALTOS. CALIFORNIA
CAROL A. SCHNEIDER                                                                           SAN DIEGO, CALIFORNIA
DORA M. CLARKE


MEMBERS OF THE
AMERICAN INSTITUTE
    OF CPA'S


         Inspector General
         Corporation for National Service

                We have applied certain agreed-upon procedures, as discussed below, to the Final
         Management Decision, by the Corporation for National Service (Corporation), on OIG Audit
         Report 99-04, Audit of the CongressionalHunger Center. We applied the agreed-upon
         procedures in accordance with Government Auditing Standards (1994 Revision). Our review
         was made solely to assist you in evaluating the appropriateness of the Management Decision
         regarding costs that had been questioned in Audit Report 99-04, and should not be used for any
         other purpose.

          Background

                 Audit report 99-04 addressed $1,978,804 claimed by the Congressional Hunger Center
          (CHC) under Cooperative Agreement No. 96ADNDC099 during the period October 1996
          through March 1998. The report questioned $233,032 of the amount claimed. The
          Corporation's Final Management Decision reinstated $123,3 19 of the questioned costs.

          Review Results

                   Based on the results of applying the procedures enumerated below, we are of the opinion
          that $18,446 of costs questioned were inappropriately reinstated and allowed by the Corporation
          in it's Final Management Decision. Details with respect to these findings are presented on
          Exhibit A.

          Procedures

                     The procedures we performed are as follows:
                     (a)    We reviewed the original audit report.
                     @)     We reviewed CHC's response to the audit report.
                     (c)    We reviewed the Proposed and Final Management Decisions.
                     (d)    We reviewed CHC's Audit Response for Management Decision dated June 25,
                            1999.




                      MEMBER OF THE DIVISION FOR CPA FIRMS, PRIVATE COMPANIES PRACTICE SECTION
                                AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS
Inspector General
Corporation for National Service


       (e)     We reviewed documentation represented as supporting the Final Management
               Decision to determine whether such documentation was competent.

        Because the above procedures do not constitute an audit conducted in accordance with
generally accepted government auditing standards, we do not express an opinion on the adequacy
or compliance of the Corporation's Final Management Decision. In connection with the
procedures referred to above, no matters came to our attention that caused us to believe that there
were significant inadequacies or noncompliances related to the Final Management Decision
other than those presented on Exhibit A.

        The Corporation's response appears at the end of this report. We considered the response
when finalizing our report but made no changes for the following reasons: We observe, first,
that the Corporation did not comment on our findings related to the reinstatement of healthcare
costs, payment to the Milwaukee Area Technical College, payment to the University of
Wisconsin, or payroll costs. However, in supporting its position that the questioned living
allowances are valid costs, the Corporation repeats its argument that the Hope VI/Hillside
activities were part of the CHC joint cross-stream activities and are within the scope of the
project. Again, neither Congressional Hunger Center nor the Corporation has produced any
documentation or other substantiation that this is, in fact, the case.

        The Corporation also repeats its argument that driving lessons are allowable costs
because members are required to drive trucks for delivering food and other supplies to
community gardens and food kitchens. We do not believe that driver education is the type of
Member education contemplated by the AmeriCorps program. Further, the Corporation's
position suggests that all of the activities of the Wisconsin program involve driving.

        Finally, the Corporation notes that the original management position stated that CHC
provided copies of the general ledger reflecting the $1,360 of bookkeeping charges which were
questioned, as 33% of a $4,000 charge paid from CHC General Account Fund. Irrespective of
what the Corporation was shown, the $1,360 was, in fact, included in the amounts claimed
against Federal funds.


                                            &hr,n-h                     h
                                              Leonard G. Bimbaum and Company
Alexandria, Virginia
October 1,2001
                                                   CORPORATION FOR NATIONAL SERVICE                           Exhibit A
                                                     CONGRESSIONAL HUNGER CENTER
                                                 REVISED SCHEDULE OF QUESTIONED COSTS
                                                    OCTOBER 1,1996 TO MARCH 31,1998



                                                          Original   Management            OIG      Revised
                                                        Questioned    Reinstated        Amount   Questioned
                                                             Costs        Costs         Agreed        Costs     M

Living Allowances
   L~vingAllowances
   Questioned Costs Not D~sputedby Management
      Total for Living Allowances

FlCA 8 Worker's Compensation
   FlCA & Worker's Compensation
   Questioned Costs Not Disputed by Management
      Total for FlCA & Worker's Compensation

Health Care
  Vermont Health Care Costs
  Questioned Costs Not Disputed by Management
      Total for Health Care Costs

Training & Education
   I. DC Site
   Questioned Costs Not Disputed by Management
       Total for DC Site

   II. Wisconson Site
   Questioned Costs Not Disputed by Management
       Total for Wisconson Site

     Total Training & Education

Other Member Costs
   Questioned Costs Not D~sputedby Management

Salaries
   Salaries
   Questioned Costs Not Disputed by Management

      Total Salaries

Benefits
  Benefits
  Questioned Costs Not Disputed by Management

      Total Benefits

Staff Training
   Questioned Costs Not Disputed by Management

Operational Expenses - Travel
  Travel Costs
  Questioned Costs Not Disputed by Management

      Total Travel

Operational Expenses - Supplies
  Questioned Costs Not Disputed by Management

Operational Expenses - Transportation
  Questioned Costs Not Disputed by Management

                       -
Operational Expenses Other
  Questioned Costs Not Disputed by Management
                                                     CORPORATKM FOR NATIONALSERVICE                            Exhibit A
                                                       CONQRESSIONALHUNQER CENTER
                                                   REVlSED SCHEDULE OF QUESTIONEDCOSTS
                                                      OCTOBER 1,1006 TO MARCH 31,1008



                                                           Original   Management            010     Revised
                                                         Questioned    Reinstated        Amount   Questioned
                                                             Costa         Costa         Agreed       Costs      fy~&

Costs Claimed by Califordm S i b
  California Site Cwtt
  Questioned Cwtt Not Disputed by Management

     Total C a l i i Site Costs

Costs Exceeded Maximum Fderal Share
  Cwts exceeding federal matching share
  Questioned Costs Not Disputed by Management




   Total Before Matchlng Funds


Matching Funds
  Matching Funds
  Questioned Costs Not Disputed by Management

     Total for Matching Funds




   Summary
                   -
   Reinstated Cwts OIG Concurrance
                   -
   Reinstated Costs OIG NonConcurrance

                             -
   Reinstated Matching Funds OIG Non-CMlcurrance
                                Corporation for National Service
                                Congressional Hunger Center
                           Cooperative Agreement No. 96ADNC099
                              Revised Schedule of Questioned Costs



Notes to Revised Schedule of Questioned Costs

   Living Allowances - The original report questioned these costs because these individuals
   were either not on AmeriCorps rosters or were performing services for the Hillside or
   Recycling activities, which are not within the scope of the cooperative agreement. The
   Corporation noted that the audit work papers included timesheets with entries indicating
   "AmeriCorps" or "Hope VI/Hillside." The Corporation, without explanation, characterized
   the Hope VI/Hillside as joint service activities with other participants in the Corps and that
   these cross service activities were part of their ArneriCorps activities. Since the Final
   Management Decision does not present any evidence that these other activities are related to
   AmeriCorps activities, we consider the reinstatement of these costs as inappropriate.

   FICA & Worker's Compensation - The original report questioned these costs because they
   were allocations attributable to the questioned living allowances. Since we consider the
   reinstatement of the living allowances to be inappropriate, we consider the reinstatement of
   the related FICA and worker's compensation to also be inappropriate.

   Health Care - The management decision did not reference any records related to the time
   actually spent by these individuals. Instead, the reinstatement seems to be based on an
   invoice for insurance. Absent the provision of timesheets which support the contention that
   these individuals were, in fact, working in a full time capacity for a sustained period of time,
   we consider these costs to have been inappropriately reinstated.

    Training & Education

       Washington D.C. Site - With the exception of a de minimis unexplained difference, we
       consider the reinstatement of questioned costs to be based on appropriate documentation.

       Wisconsin Site - The audit report questioned $2,341 of driving school fees; $453 paid to
       Milwaukee Area Technical College (MATC), and $618 to the University of Wisconsin.
       The Corporation, in its Management Decision, stated that the MATC training was for
       presentations on basic computer skills. The audit examination of the underlying
       documentation disclosed that the payment covered a Member's outstanding course and
       book fees so that Member could obtain a transcript. Similarly, the Corporation identified
       the payment to the University of Wisconsin as training on gardening programs while the
       audit examination of the underlying documentation disclosed that the site had sponsored
       a Member to take a Spanish class at the university. The Corporation took no effort to
       determine the true nature of these expenditures, but rather acted only on written
       representations by CHC. We consider this reinstatement to be inappropriate. The audit
       report questioned the driving school fees as being of a personal nature. The Corporation
       reasoned that the members need driver education to drive trucks for delivering food and
       other supplies, but did not address whether the expense was personal. In contrast, the
                               Corporation for National Service
                               Congressional Hunger Center
                          Cooperative Agreement No. 96ADNC099
                             Revised Schedule of Questioned Costs



       Corporation sustained our questioning of costs claimed for prescription eyeglasses on the
       basis that such costs are personal in nature. We feel that the Corporation has not
       adequately addressed the personal nature of driving lessons and accordingly, consider the
       reinstatement of these costs to be inappropriate.

5. Salaries - Our original findings were that $11,427 in salary costs should be questioned due to
   expenditures not being adequately supported. CHC has reinstated $1,360 and $7,524 of these
   questioned costs.

       The $1,360 payment was to the CPA firm of Kaufman Davis, LLP was for bookkeeping
       services. These are not salaries. Therefore we consider the reinstatement of this cost to
       be inappropriate.

       We originally questioned $7,827 in salary costs because these salaries were on the
       general ledger, but not the Paychex Payroll Register. CHC has reinstated $7,524 of this
       amount claiming that the grantee has provided CHC with a list of specific individuals
       who received severance payments. CHC has provided us with Paychex Payroll Registers
       for the periods 12/13/96 and 1/8/97. The payroll register dated 12/13/96 does not pertain
       to the period in question. The payroll register dated 1/8/97 will support $4,849 in salary
       payments. However, unless and until the grantee can support the remaining amounts
       reinstated (mostly from the period 1131/97), we consider the reinstatement of the
       remaining salary costs to be inappropriate.

6. Benefits - The Corporation reinstated $576 of questioned benefit costs. We concur with the
   portion attributable to additional salary costs for which we concur with ($4,849 x .0765 =
   371). However, unless and until the Corporation can establish that the remaining reinstated
   salary costs are supported, we consider the Corporation's reinstatement of the remaining
   $205 to be inappropriate.

7. Travel - With the exception of a de minimis amount which we believe to be a duplicative, we
   concur with the Corporation's decision.

8. Supplies -We concur with the Corporation's Management Decision.

9. Transportation - We concur with the Corporation's Management Decision.

10. Other Operational Expenses - We concur with the Corporation's Management Decision.

11. Costs Claimed by California Site - We concur with the Corporation's Management Decision.
                               Corporation for National Service
                               Congressional Hunger Center
                          Cooperative Agreement No. 96ADNC099
                             Revised Schedule of Questioned Costs



  Costs Claimed in Excess of Maximum Federal Share - The audit report questioned $96,8 11
  because the recorded and claimed costs did not meet the minimum match requirement of 33
  percent of program operating costs. CHC responded to the draft audit by letter dated January
  14, 1999. In that letter, CHC acknowledged that "$96,811 is questioned." In a document
  titled Supplemental Submission for CHC's Audit Response No. 99-04, dated July 20, 1999,
  CHC asserted "(w) e believe that the auditor's notes only demonstrated Vermont's match the
  cash portion of B-F costs at $73,000 (sic). The remaining portion is achieved by in-kind
  donations not sought by the auditor during his visit." The Proposed Management Decision
  stated that "(t) he grantee was able to locate additional boxes of in-kind matching
  documentation that had been warehoused during the time of the audit and had not been
  reviewed by the auditors." On the strength of these documents, the Corporation reinstated
  $95,999 of the questioned costs. However, the documents, which CHC has produced, and
  the information provided to CNS OIG, have not been recorded as a cost of theprogram. We
  note, that Office of Management and Budget Circular A-1 10 requires that grantees' financial
  management systems provide accurate, current, and complete disclosure of the financial
  results of each federally sponsored project or program. The Circular requires, further, that
   cost sharing, including cash and third party in-kind must be verifiable from the recipient's
  records.

   Because CHC did not, in response to the draft audit report, represent that it had additional in-
   kind documents and because this in-kind match was not recorded as a cost of the program,
   we referred this matter to OIG Investigations. The investigation found that the documents
   were, in fact, authentic forms filled out at the time the in-kind donation was received.
   Accordingly, we concur with the reinstatement of these costs and recommend that the
   Corporation follow-up with CHC to ensure that these costs, and future matching costs, are
   properly recorded and reported.

13. Because we do not concur with the reinstatement of the living allowances, FICA, and
    workers' compensation, and health care expenses, we do not concur with reinstatement of the
    related match costs.
                                                           CORPORATION

                                                           FOR NATIONAL




  DATE:               September 27,2001

  TO:                 Luise S. Jordan, Inspector General

  THRU:               William Anderson, Deputy Chief Fi

  FROM:               Peg Rosenbeny, Director of Grants

  SUBJECT:            Response to OIG Draft Audit Repo
                      Management Decision Related to t
                      Hungev Centev


          Thank you for the additional information regarding the Corporation's management
  decision on the audit of the Congressional Hunger Center (CHC). As you know, on March 14,
  2001, the Corporation made its final management decision and conveyed it to CHC.
  Subsequently, you expressed disagreement with our final management decision regarding several
  costs allowed by the Corporation. We are pleased that the auditors concurred with our decision
  regarding $104,873 of the original $l23,3 19 in questioned costs allowed by management in its
  management decision. We note that this follow up audit report continues to disagree with
  $1 8,446 of the costs the Corporation allowed. For your convenience, additional information is
  provided below outlining why we allowed these costs.

           However, the Corporation does not believe that an audit report such as this is the
  appropriate vehicle to resolve this type of issue. Rather, the Corporation believes that these
  matters should be addressed during the audit resolution process before the management decision
  is finalized. During the audit resolution process, management considers the issues raised in the
  final OIG report, reviews relevant evidence and other pertinent information provided by both the
  OIG and the auditee, and provides a proposed management decision to OIG. During the process,
  management and OIG have the opportunity to review and discuss the basis of management
  decisions, including the allowance of questioned costs. The Corporation believes that it would
  be more productive to raise and resolve these matters during that process.

  Living Allowances: The auditors disagreed with our decision to allow the member living
  allowance costs associated with individuals performing services for the Hope VIIHillside service
  project. They felt the Corporation allowed the costs without presenting evidence that these other
  activities are related to ArneriCorps activities. However, we point out that under the AmeriCorps
  guidelines, programs are encouraged to participate in cross-stream service activities and the
  hours spent on these activities are allowable. The Hope VIIHillside activities were part of the
  CHC joint cross-stream service activities and are within the scope of the project. Therefore, the




NATIONAL SERVICE: G E l l l N G THINGS DONE                             1201 New York Avenue, N .w. Washington, D.C. 20525
AmerzCotp~ ~ e a m
                 and Senie Amenca   ,+httonalSentor Service C   O ~ A   telephone: 202-606-5000 website: www.nationdservice.org
$10,088 in questioned costs associated with those activities, including living allowances, FICA
and Worker's Compensation, were allowed.

Driving School Fees: The auditors disagreed with the Corporation's decision to allow $2,341 in
driving school fees. The audit originally questioned the costs because they appeared to be of a
personal nature and the auditors believed the Corporation did not address the personal nature of
the training in its management decision. However, in its management decision, the Corporation
cited the AmeriCorps Provisions as the authority for allowing the costs. AmeriCorps Provision
#7c states that, "consistent with the approved budget, the Grantee must provide members with
the training, skills, knowledge and supervision necessary to perform the tasks required in their
assigned project positions, including specific training in a particular field and background
information on the community served." Therefore, because members needed driver's licenses to
drive trucks for delivering food and other supplies to community gardens and food kitchens, the
program could pay for that training for those without licenses. It is an allowable cost under the
grant .

Salaries: The auditors misread the original management decision related to the bookkeeping
expenses. They disagreed with the Corporation's decision to allow the expenses because they
were fees to a bookkeeping firm, not salaries. However, the original management decision noted
that the expenses were not charged to the grant at all. The original management decision stated
that CHC provided copies of the general ledger reflecting the $1,360 as 33% of a $4,000 charge
for bookkeeping services paid from the CHC General Account fund and not CNS funds.

cc:    file
